No.
In The

Supreme Court of the United States
RICHARD MOSELEY, SR.
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

COMES NOW THE PETITIONER, RICHARD MOSELEY, SR., by and
through his undersigned counsel, and herein moves for leave to proceed in forma
pauperis. In support thereof, Petitioner would state:
1.

Petitioner is an indigent inmate who has been incarcerated at the
Satellite Camp at USP Marion in the State of Illinois.

2.

On this date, Petitioner is filing a Petition for a Writ of Certiorari to the
Second Circuit Court of Appeals.

3.

Petitioner, who is without funds, seeks leave to proceed in this matter
in forma pauperis.

4.

The undersigned counsel was appointed on July 17, 2018 by the United
States Court of Appeals for the Second Circuit to represent Petitioner
pursuant to the Criminal Justice Act, 18 U.S.C. ยง3006A.

WHEREFORE, Petitioner moves to proceed in forma pauperis.

Respectfully submitted,

Amy Adelson
(Counsel of Record)
Law Offices of Amy Adelson, LLC
43 West 43d St.
Suite 96
New York, NY 10036
212-889-4009
aadelson@lawdea.com
Attorneys for Petitioner

2

